                                                         NATIONAL SCIENCE FOUNDATION
                                                          OFFICE OF INSPECTOR GENERAL
                                                           OFFICE OF INVESTIGATIONS

                                                 CLOSEOUT MEMORANDUM

11   Case Number: A03040018
                                                                                      11           Page 1 of 1



                  We received an allegation that two subjects' had copied text fiom a published paper into their
          NSF proposal.2 We identified images copied from other sources in addition to the copied text. One
          set of images in particular appeared to have been altered and presented with fabricated experimental
          conditions. The evidence warranted a full investigation with regard to one subject, the PI, and we
          referred the investigation to the ~ n i v e r s i t y .The
                                                                  ~ University made a finding of research misconduct
          including plagiarism, fabrication, and falsification all in the one proposal. But because the PI'S
          contract had expired, the University was able only to impose requirements regarding the PI'S future
          employment with the University. We concurred with the Univeristy's findings and based on the
          attached investigation report recommended that NSF: send a letter ofreprimand containing a finding
          of research misconduct; debar the subject for a period of 2 years; require the PI to certify completion
          of an ethics course before submitting any other NSF proposals; require the PI to submit certifications
          and assurances for 3 years after the debarment period; and bar the subject from peer review. In the
          attached letter fiom the NSF Deputy Director, NSF made a finding of research misconduct, required
          certifications and assurances for 3 years, required certification of an ethics course on plagiarism
          within one year, and barred the PI from participating as a reviewer at NSF for 3 years.

                     Accordingly, this case is closed.




 NSF OIG Form 2 (1 1/02)
                               NATIONALSCIENCE FOUNDATION
                                    4201 WILSON BOULEVARD
                                   ARLINGTON,VIRGINIA 22230




   OFFICE OF THE
  DEPUTY DIRECTOR




    TTPlEn M A T T    --RETI JRN RECRTPT RE-




         Re: Notice of Misconduct in Science Determination

Dear ~          r       m

                                       - submitted a proposal to the National Science
        On or about Januarv 29, 2003.. YOU                    A



Foundation ('NSF') entitled
0 As documented in the attached Investigative Report prepared by NS$'s Office of
Inspector General ("OIG"), this proposal contained text and graphical figures that were
plagiarized and fabricated.



       Under NSF's regulations, "research misconduct" is defined as "fabrication, falsification,
or plagiarism in proposing or performing research funded by NSF ..." 45 CFR fj 689.1(a). A
finding of research misconduct requires that:
         (1) There be a significant departure fiom accepted practices of the relevant research
             community; and
         (2) The research misconduct be committed intentionally, or knowingly, or recklessly; and
         (3) The allegation be proven by a preponderance of evidence.

 45 CFR § 689.2(c).

         In your proposal, you misappropriated text and copied graphical images fiom a source
 document into the proposal without providing proper attribution for such material. By
 submitting proposals to NSF that copy the ideas or words of another without adequate
 attribution, as described in the OIG Investigative Report, you misrepresented someone else's
 work as your own. Your conduct unquestionably constitutes plagiarism. In addition, you
fabricated and. falsified the'text and the images to convey the impression that the intellectual
content of the material was your own. 1 therefore conclude that your actions meet the definition
of "research misconduct" set forth in NSFysregulations.


        Pursuant to NSF regulations, the Foundation must also determine whether to make a
finding of misconduct based on a preponderance of the evidence. 45 CFR 8 689.2(c); After
                                                                    '
                                                                                                          a




rey'iewing the Investigative Report and the University Committee Report, NSF has determined
that based on a preponderance of the evidence, your misconduct was knowing and constituted a
significant departure from accepted practices of the relevant research community. I am,
 therefore, issuing a finding of research misconduct against you. '


        NSF's regulations establish three categories of actions (Group I, 11, and IIl) that can be
taken in response to a finding of misconduct. 45 CFR $689.3(a). Group I actions include issuing       '
a letter of reprimand; conditioning awards on prior approval of particular activities fiom NSF;
requiring that an institution or individual obtain special prior approval of particular activities
fiom NSF; and requiring that an institutional representative certify as to the accuracy of reports            ,   '


or certifications of compliance with particular requirements. 45 CFR $689.3(a)(l). Group 1T
actions include award suspension or restrictions on designated activities or expenditures;
requiring special reviews of requests for finding; and requiring correction to the research record.
45 CFR $689.3(a)(2). Group III actions include suspension or termination of a\;ards;
prohibitions on participation as 'NSF reviewers, advisors or consultants; and debarment or
suspension fiom participation in NSF programs. 45 CFR $ 689.3(a)(3).


       In determining the severity of the sanction to impose for research misconduct, I have
considered the seriousness of the misconduct; our determination that it was knowing; the
determination that it was an isolated event; your willingness to accept responsibility for your
actions; and the fact that yoilr conduct did not have an impact on the published research record. I
have also considered other relevant circumstances. 45 CFR 689.3 (b).


       I find your misconduct to be inappropriate. There are, however, several mitigating factors
that we considered. First, your conduct did not have a significant impact on the research record.
Second, the misconduct was an isolated incident, as opposed to being part of a pattern of
misconduct. Lastly, you admitted your error and agreed that some sanction would be
appropriate.


         I, therefore, am requiring that, from the date of this letter until September 1, 2008, you
 certify that any documents submitted by you to NSF do not contain any fabricated or falsified
 information. In addition, for this same time period, an official from your employer must provide
 written assurance that any proposal submitted by you does not contain any falsified or fabricated
infirmation. Such certifications and assurances should be sent to the Office of 1nspector General
(?0IG9'), 4201 Wilson Boulevard, Arlington, Virginia 22230. Furthermore, NSF has barred you
      sewing as a reviewer of NSF proposals until ~ e ~ t e m b1,2008.
                                                               er      Lastly, you are required to
complete an ethics training course on plagiarism by September 1, 2006. You must certify in
writing to the OIG that such training has been completed:
                                                                                            . .




        Under NSF's regulations, you have 30 days afterareceipt of this letter to submit an appeal
of this decision, in writing, to the Director of the Foundation. 45 CFR §689.10(a). Any appeal1
        be addressed to the Director at the National Science Foundation, 420 1 Wilson Boulevard,
Arlington, Virginia 22230. If we do not receive a response to this notice within the 30-day
period, this decision will become final. For your infognation we are attaching a copy of ;he
applicable regulations. If'you have any questions about the foregoing, please call
Assistant General Counsel, at (703) 292-8060.                                           I




                                                     Sincerely,



                                                    Rathie L. Olsen
                                                    Deputy Director

Enclosures
- Investigative Report
- 45 C.F.R. 689
        National Science Foundation
         Office of Inspector General




                        Confidential
                    Investigation Report
                  Case Number A03040018

                         24 March 2005


CONFIDENTIAL

NSF OIG FORM228 (1103)
                                                    Summary

        The Office of Inspector General (OIG) has concluded that the subject1 committed
plagiarism, fabrication, and falsification in a proposal submitted to NSF (the ~ r o ~ o s a l As
                                                                                               ) . ~part
of an investigation, the subject's university3 (the University) made a finding of research
misconduct under its policies and procedures.4 The University found that the subject knowingly
plagiarized, falsified, and fabricated text and figures in the Proposal. OIG accepts the
University's investigation in lieu of conducting its own and accordingly recommends that NSF:

                   send a letter of reprimand to the subject informing him that NSF has made a
                   finding of research misconduct;

                   debar the subject from receiving federal funds for a period of 2 years commencing
                   on the date of NSF's finding of research misconduct;

                   require the subject to certify completion of an ethics course covering research
                   misconduct before submitting any proposals to NSF on which he is a principal
                   investigator (PI) or co-principal investigator (Co-PI);

                   require the subject to certify that proposals he submits to NSF do not contain
                   plagiarized, falsified, or fabricated material for 3 years after the debarment period;

                   require that the subject submit assurances by a responsible official of his
                   employer that proposals submitted by the subject do not contain plagiarized,
                   falsified, or fabricated material for 3 years after the debarment period; and

                   bar the subject from serving as a reviewer of NSF proposals for 3 years
                   commencing on the date of NSF's finding of research misconduct.




(Tab 4).
3

    Tab 1, University Research Misconduct Policy.
                                        OIG's Inquirv

         OIG received an allegation that the Proposal contained text plagiarized from a published
article (Source I).' In OIG's review of the Proposal, OIG found the following apparently copied
(and rearranged) text and figure (with two panels deleted) in the "Preliminary Results" Section:
        A second figure, Proposal Figure 7 (which also appeared in a Powerpoint slide attached
to the ~ r o ~ o s a lappeared
                       ),~     to have been copied from Figure 7 in a second source (Source 2):8




In Proposal Figure 7, the subject appeared to have omitted elements of the Source 2 figure,
changed the data values on the color scale bar, and described experimental conditions in the
                                                                          ''
associated caption different from those in the Source 2 figure. OIG wrote to both the subject12
(the PI) and the CO- PI'^ to request an explanation of the allegedly copied text and figures,
including the figure captions.

       Both the subject l4 and the CO- PI'^ wrote that the subject was the author of the portion of
the proposal containing the alleged plagiarism because it was the subject's area of expertise.
Both of their biographical sketches supported this explanation. l6 The subject admitted copying
the material and claimed sole responsibility for the copied text. l7 However, the subject did not
address the figure captions in his response to OIG's inquiry letter.

     Tab 4,page 11.
     Tab 7
                                                                                    Figure 7 on page 399 of the copy
of this paper obtained by OIG fiom interlibrary loan copy is not in color and is of very poor quality;
                                                                                               .    . a clearer color
copy of the same figure-fiom the paper's lead author's website is included in Tab 7 following the copy of the article
(60
  Tab 4, project description, page 11.
'O Tab 7, page 399 and web page.
I' See Tab 4, project description, page 11, and Tab 7, page 399.




l5   Tab 12, the Co-PI'S response to OIG's inquiry letter, page 1.
l6   Tab 12, page 1.
l7   Tab 11, page 2.
                                                                                        '*
        The subject pointed out that he "did list the sources in question in the References section
at the end of the grant," although the questioned text did not have a citation. OIG found that
Source 1 was included in the "References" section. However, OIG also found that Source 2, the
source for Proposal Figure 7, was not referenced in the Proposal at all, contrary to his assertion
in his original response to OIG that he did reference Source 2.19

        OIG determined that the allegations of plagiarism, fabrication, and falsification had
sufficient substance to warrant a detailed investigation. OIG contacted the University and
informed it of the allegations involving the subject. The University accepted OIG's referral of
investigation, and OIG deferred its investigation pending receipt of the University's report2'

                              The Universitv's Inquirv and Investigation

        In accord with its misconduct          the University formed a committee (the
Committee) and conducted an inquiry before beginning an investigation into the referred
allegations. The Committee found sufficient substance to the referred allegations to warrant a
detailed investigation.22 The University's deciding official concurred with the Committee's
recommendation, and the Committee proceeded with an investigation

        to determine whether, based on a preponderance of the evidence, scientific
        misconduct (as defined in 45 C.F.R. part 689) occurred and, if so, to what
        extent, who was responsible, its seriousness, and any recommended
        actions based on the . . . allegations.[231

        The Committee concluded by a preponderance of the evidence that the subject knowingly
plagiarized, fabricated, and falsified text and figures in his NSF proposal.24 The Committee
based its conclusions on documentary evidence and interviews.

                                         Allegations Involving Text

       With regard to the allegedly copied text in the "Preliminary results" section of the
Proposal, the Committee concluded by a preponderance of the evidence that the subject
"knowingly plagiarized and falsified" the text.25 This finding was based on the subject's
responses to OIG's initial inquiry letter and to the Committee's questions. The subject admitted


l8 ~ a 11,
         b page 1.
l9 ~ a 11,
         b page 1.
20 Tab 5, OIG referral of investigation letter, dated October 10,2003.
   Tab 1.
22 Tab 16, the University's Inquiry Committee Report, pages 4-5. The Committee also identified allegations related
to the subject's statements regarding lab space and employment status in both the NSF proposal and an N M
proposal. However, OIG determined that the subject stated his employment status correctly in the NSF proposal and
that the difference between actual and reported lab space available, and the employment status information in the
NIH proposal, are not significant under the circumstances.
23 Tab 3, page 4.
24 Tab 3, pages 8,9, and 11. See note 22.
25 Tab 3, page 8.
that he copied the text from the published article but pointed out that he included the paper in the
"References" section. The subject also stated:

        I did not seek to obtain any permission to use this material in my grant, as
        I believed it is perfectly kosher to use material from other sources in the
        context of a grant proposal for the purpose of illustrating the feasibility of
        a proposed method, provided a proper citation and acknowledgement of
        the other source is given. I admit that I might have failed to provide an
        adequate citation of these sources as required by NSF rules and
        guidelines.r261

During its inquiry, the Committee interviewed the subject and learned:

         [The subject] believes that the standards for preliminary data sections in
        grant applications are less stringent than those required to publish in a
        journal of other publication.27

         The subject told the Committee that he considered his former postdoctoral advisor,28a
co-author on both source documents, to be a consultant on the proposal and "agreed to let us use
relevant data of his in the grant,"29thereby implying that he had permission to use the copied
material. The Committee noted that the advisor had not been identified on the grant proposal as
a collaborator or consultant, and found "no letter or any other record of communication from [the
advisor]" to acknowledge a collaboration or consultant relationship.30 The Committee learned
that the subject had access to his former advisor's data while he was a postdoctoral fellow and
his former advisor would have had no objection to him taking copies of the data with him.31 The
Committee contacted the former postdoctoral advisor and he responded that the subject "called
. . . several times . . . asking for advice on technical aspects" of the Proposal but the subject "did
not provide a draft of his proposal to me as far as I can remember."32 The advisor did not state
that he was a consultant for the proposed              The subject agreed with the Committee that
"he should have obtained a letter from" 34 the advisor giving him permission to use the material.

         The Committee questioned the subject's use of the pronoun "we" in the Proposal's
"Preliminary Results" section.35 The subject used "we" throughout the discussion of preliminary
results, although not within the paragraph containing the copied text. The copied text is within a
paragraph predominated by the passive voice, leaving the source of the background information

2 6 ~ a 11,
        b page 1.




is the correspondenceauthor on the journal article from which the subject admitted copying the text.
30Tab3, page 7.
3 1 Tab 15, the postdoctoral advisor's reply to the University, page 1.
32 ~ a b l 5page
            ,    1.
33 Tab 3, page 7.
34 Tab 3, page 7.
35 Tab 3, page 7. See also, Tab 4, project description, pages 8 and 1 1 .
unidentified. The Committee found and the subject agreed that the use of the pronoun "we"
could lead a reviewer to infer from the context that the methods and data "were directly
generated by the proposal applicant." The Committee reported that the subject "opined that he
was rushed . . . and thus did not carefully consider his wording."36

        The Committee determined that the subject's failure to indicate the source of the copied
material was a "significant departure from generally accepted criteria for the use and
acknowledgement of material from published material, and is thus indicative of knowing
plagiarism."37 Furthermore, the Committee found that "the use of the pronoun 'we' in the direct
weaving of textual material from an uncited reference within the textual narrative of a
'Preliminary Results' section of a grant proposal is indicative of knowing falsificati~n."~~

                  Allegations Involving Figures and Su~~vlemental
                                                               PowerPoint Slide

        Allegations regarding the copying of figures involved two sets of graphical information,
both of which were found in the text of the proposal, and one of which also appeared in a
supplemental PowerPoint slide.39 Proposal Figure 440comprised four photographic images that
are identical to four of the six photographic images in Figure 7 of Source 1, which also contains
the apparently copied text4' Proposal Figure 742closely resembled a figure containing
experimental images of cells found in Source 2,43and was also available on the subject's former
postdoctoral advisor's web site.44 The Committee addressed each figure separately. Because the
questioned Proposal figures were identical to the questioned figures in the supplemental
PowerPoint slide entitled "Preliminary Results," the Committee applied the same analysis of the
figures in the text to the figures in the slide.45

        With regard to Proposal Figure 4, the Committee reported that the subject admitted to
copying the images without permission.46 Also, the subject wrote in his response to the
Committee's inquiry report: "I used the most relevant material . . . to demonstrate the feasibility
of the proposed method. . . . I have therefore eliminated the un-relevant part and rearranged the
figure to enhance its clarity and relevance to the proposed grant."47 The Committee concluded

        that the failure to explicitly cite the indicated images from [Source 11 in a
        grant application section titled "Preliminary Results" is a significant
        departure from generally accepted criteria for the use and
        acknowledgement of graphic material from published material and is thus


36 Tab 3, page 7-8.
37
   Tab 3, page 8. (See note 25.)
38 Tab 3, page 8.
39 Tab 4, project description, pages 9, 12, and Supplemental Material.
40 Tab 4, page 9.
41 Tab 6, page 3346.
42 Tab 4, page 11.


"
43 Tab 7, page 399.
   Tab 7, webpage Figure 3.
45 Tab 3, page 11.
46
   Tab 11, page 1. See also Tab 3, page 8, and Tab 19, page 1.
47
   Tab 18, page 1.
        indicative of knowing plagiarism. The committee further determined that
        the rearrangement of the images from [Source I.] Figure 7 into a different
        layout in [Proposal] Figure 4, with a different textual annotation, and with
        the use of different numerical values . . . is indicative of knowing
        fabrication of data. Finally, the committee determined that [the subject's]
        explanations based on "being hurriedJrushed" . . . did not constitute a
        compelling justification . . . . Rather, the Committee felt that this was
        indicative of an overly expedient and unprofessional attitude on the part of
        [the subject] with regard to generally acce ted criteria for the inclusion of
        preliminary data within grant proposals.[48/'
        The Committee reported similarly for Proposal Figure 7:

        During his interview. . . , [the subject] acknowledged that the [Proposal
        Figure 71 image elements. . . were composed from fluorescence
        images . . . that were originally recorded in the laboratory of [his former
        postdoctoral advisor] . . . . [The subject] further stated that he composed
        the [Proposal] Figure 7 from images he had previously recorded and
        stored in digital repositories . . . . He was unable to precisely describe
        whether these images were chosen on the basis of explicit annotations in a
        directory . . . .1491

         Regarding the copied figures, the former postdoctoral advisor stated:" "[Proposal Figure
71 appears to be derived from the [Source 21 paper." He also wrote that he published a paper as
a co-author with the subject "describing experiments similar to those described by [the subject]
in relation to [Proposal] Figure 7"52; however he pointed out that the subject did not participate
in the actual experiments that produced the data for Proposal Figure 7. The former postdoctoral
advisor also wrote: the subject had access to the advisor's entire digital library during his time as
a postdoctoral fellow; and the advisor "would not object to [the subject] taking copies of such
data with him;" and the data in Proposal Figure 7 were not labeled accurately.53

       In the subject's response to the Committee's inquiry report, he described the results
depicted in Proposal Figure 7:

        The images depicted in Fig. 7 of the grant are a pictorial representation of
        these findings. Whether they were actually taken from this set of
        experiments or a related one, I can't tell because these experiments were
        done more than 10 years ago and the annotation and documentation of




48 Tab 3, page 9.
49
   Tab 3, page 10
   Tab 15, page 1.
   Tab 15, page 1.
52 Tab 3, page 10
53 Tab 15, page 1.
        these images in the file header and notebooks were not always
        complete.[541

        Proposal Figure 7 comprises three fluorescence images and a color scale bar that are
exactly the same, in both appearance and layout, as three of the four images and the color scale
bar in Source 2 Figure 7 (see graphical comparison in Tab 24), but are represented in the text and
the labeling of the scale on the color bar as showing the results of experiments that differ from
those described in Source 2. The Committee described the "uncertainties regarding the
generation of' Proposal Figure 7 as raising "the most serious issues and concerns regarding
possible scientific misconduct" by the subject.55 The Committee wrote:

        Given: 1) [the subject's] repeated claim of being very "rushed" . . . , and
        2) the ease with which simple digital "cut-and-paste" tools can be used to
        manipulate downloaded images from electronic journals or websites, the
        committee concluded that it was very feasible for [the subject] to have
        deliberately fabricated [Proposal] Figure 7 . . . . Thus, the committee felt
        it was very important that [the subject] clearly explain and document how
        the individual images that comprised [Proposal] Figure 7 were chosen,
        processed, and annotated. . . . [The subject] was unable to provide either
        the requisite hardware (optical disks, floppy disks) or software (clearly
        identifiable image files or file folders) to support his explanations.[561

The Committee ultimately found:

        the methods employed for the composition of [Proposal] Figure 7
        comprise a significant departure from generally accepted criteria for the
        preparation of data included as "Preliminary Results" in a grant
        application, and indicative of intentional fabrication, falsification, and
        plagiarism of data. . . . [The subject's] rushed demeanor during last-minute
        preparation of the proposal did not constitute a compelling justification or
        explanation. . . . [Tlhis was indicative of an overly expedient and
        unprofessional attitude on the part of [the subject] with regard to generally
        accepted criteria for the inclusion of preliminary data within grant


        Thus, the Committee unanimously "found by a preponderance of evidence that" Proposal
Figure 4 "was knowingly plagiarized and falsified" and Proposal Figure 7 "was intentionally
plagiarized, fabricated, and fal~ified."~'




54 Tab 18, pages 1-2.
55 Tab 3, page 10.
56 Tab 3, page 10.
57 ~ a 3,
        b page 11.
   Tab 3, pages 9 and 11.
         Because the figures used in the supplementary PowerPoint slide was identical to the
  Proposal Figure 4 and Proposal Figure 7, the Committee's analysis and findings were the same
  with regard to the figures in the PowerPoint slide submitted to NSF as Supplementary ate rial.^'

                   The Subiect's Response to the Universitv's Investigation Report

          The subject's response to the University's report primarily addresses his degree of intent.
  The subject characterizes his actions as negligent rather than intentional. The subject asserts that
  the use of the word "we" in the copied text reflects that he considered his former postdoctoral
  advisor as a consultant and "integral part of the project teamm6' and that he used Proposal
  Figure 4 with the permission of his former postdoctoral a d ~ i s o r . ~With
                                                                           '    regard to Proposal
  Figure 7, the subject asserts that he selected the wrong figures from the archived data and
  questioned the Committee's inability to access the data on the disk he provided.62 The
  Committee changed the report to address concerns raised by the subject, but those changes were
  not specifically identified in the report submitted to O I G . ~ ~

                               The Universitv's Action Against the Subiect

           The University's deciding official, the Vice President for Research and Technology
  ~ r a n s f e raccepted
                 ,~~      the Committee's report and recommendations. The University's actions in
  response to the finding of research misconduct included:

                   not hiring or appointing the subject to a faculty or staff position that would allow
                   the subject to conduct independent research or submit grant proposals as a PI;

                   forwarding the findings to any departments, programs, or faculty that might
                   consider appointing the subject to a non-independent research position;

                   flagging any proposals on which the subject is listed as a Co-PI for administrative
                   and scientific review by the University before submission;

                   requiring the subject to complete an educational program in professional research
                   ethics; and

                   requiring the subject to cease occupation and use of the University research
                   space.65




   59 Tab 3, page 11.
   60 Tab 22,  the subject's response to the Committee', page 1.
      Tab 22, Appendix D.
   62 Tab 22,. pages3
               - -    and 5.
   63 Tab 2 memorandum dated April 28,2004, to the Deciding Official.
   64

,4-"                      Memorandum.
                                             OIG's Assessment

        OIG concludes that the University followed reasonable procedures and produced an
accurate and complete body of evidence addressing the allegations regarding plagiarism,
fabrication, and falsification in the subject's NSF proposal. OIG finds that the University's final
report, including supporting evidence, adequately responds to the specific issues identified in our
investigation referral letter. Therefore in lieu of conducting an investigation, OIG accepted the
University's investigation report.66 Following OIG's receipt of the report, the subject submitted
to OIG additional comments to the Committee's final report, with attachments; these are
addressed below.67 OIG has determined after a review of the University's final report and the
subject's additional comments that a finding of research misconduct is warranted.

        A finding of misconduct requires that (1) there be a significant departure from accepted
practices of the relevant research community, (2) the research misconduct be committed
intentionally, or knowingly, or recklessly, and (3) the allegation be proven by a preponderance of
the evidence.68

                                                     The Act

       The subject allegedly copied text and graphical information from published material into
his NSF proposal, and fabricated and falsified the description of the copied graphical information
suggesting that the work was his own. The allegedly copied material appears within the
"Preliminary results" section of the ~ r o ~ o s a l . ~ ~

        Text. The subject admitted that he had copied the text into the Proposal, but claimed that
he failed to provide appropriate citations as "a result of an oversight and negligence on [his]
part."70 He also accepted fill responsibility for the copied text, stating that the Co-PI was not
involved in writing that portion of the text.7' The subject initially pointed out that Source 1, the
source of the questioned text as well as Proposal Figure 4, was cited in the "References" section
of the proposal72;however, the subject later admitted that Source 1 was cited only once, in a
section authored by the C O - P I . ~ ~

        Proposal Figure 4 and Corresponding Supplemental Powerpoint Slide Figure. The
subject admitted to copying four of six images from Figure 7 of Source 1 and rearranging them
to produce Proposal Figure 4.74 The subject explained that he did so "to demonstrate the
feasibility of the proposed method" and that he "eliminated the un-relevant part and rearranged
the figure to enhance its clarity and relevance to the proposed grant."75 The subject also told the

66
   Collectively, Tabs 2 through 22.
67 Tab 23.
   45 C.F.R. 9 689.2(c).
69 This section followed the "Background" section and preceded the "Proposed w o r k section.
70 ~ a 11,
         b page 1.
71
   Tab 11, page 2.
72
   Tab 11, page 1.
73 Tab 23, page 1.
74 Tab 18, page 1.
75 Tab 18, page 1.
Committee that in writing the description the experiments represented by Proposal Fi$lre 4 in
the Proposal "he must have miscopied that text because there were inconsi~tencies."~In fact,
Source 1 reported 30 normalized trails with ratios of 2.1 0.4 and 2.3 k 0.6 in support of the
figure,77whereas the subject reported 10 normalized trials with ratios of 2.0 and 2.2 in the
~ro~osal.~'

        Proposal Figure 7 and Corresponding Supplemental Powerpoint Slide Figure. OIG
identified two potential sources for Proposal Figure 7, one a published paper and the other the
paper's correspondence author's website, which referenced Source 2 as the ultimate source of the
figure. The subject's former postdoctoral advisor is the correspondence author of that paper as
well as the faculty member whose website includes the fi we. Neither Source 2 nor the website
identified the subject as an author of the material copied.  8
         The sub'ect admitted to copying the source material into the Proposal in his response to
OIGYsinquiry." During the Committee's investigation he also admitted that he could not
determine if the experiments he described as producing the data shown in Proposal Figure 7 were
in fact the experiments that produced the images in the source."

          Proposal Figure 7 was a slightly modified version of the source figure, which shows
experimental data. OIG has constructed a graphical analysis of Proposal Figure 7 in Tab 24.
The source figure was composed of four color images of cells. Proposal Figure 7 contained only
three color images of cells, but the cell images and scale bar were of identical shape, size,
coloration, and spatial arrangement as the lower three cell images and scale bar in the source
figure.s2 The only difference between the figures, other than the Proposal figure having one
fewer cell image, was the text labeling on the figure. The caption text for Proposal Figure 7
indicated that the three cell images show the effect of changes in ion concentration^,'^ whereas
the source figure caption indicated that the images show changes over time under constant ion
c ~ n c e n t r a t i o n .In
                            ~ ~the proposal text, the subject discussed Proposal Figure 7 as preliminary
results ("We have also used [the method] to image . . . the cell membrane")" without citation to
his former postdoctoral advisor's work.

        The subject told the Committee that Proposal Figure 7 was an assemblage of data taken
from optical disks that he had brought with him from his postdoctoral ~ o r k . 'However,
                                                                                     ~         the
Committee reported that the subject "was unable to provide either the requisite hardware (optical
disks, floppy disks) or software (clearly identifiable image files or file folders) to support his



76 Tab 13, page 3.
77 Tab 6, page 3346.
78
   Tab 4, page 9.
79 Tab 7, page 393 and website.
80
   Tab 11, page 1.
   Tab 18, page 1.
82 The images are compared graphically at Tab 24.
   Tab 4, page 11
84 Tab 7, Figure 7
   Tab 4, page 11
86 Tab 3, page 10.
e~~lanations."~'  The subject was unable to describe to the Committee the process he used to
select the images for Proposal Figure 788or to provide the raw data fiom which he claimed to
have selected the images to compose the figure.89 The subject noted that the raw images in the
database were not labeled or annotated,g0and he characterized the similarity between the
proposal and source figures as a coin~idence.~' The Committee did not resolve whether the
images were copied from an image database that the subject brought with him from his
postdoctoral fellowship or directly from Source 2 as it is found on the Internet.

        OIG concludes that coincidence is an unlikely explanation for the identical nature of the
figures. For the subject to have selected three images of the same cell(s) fiom a database of
unlabeled optical images for a composite to represent three experimental conditions substantially
different fiom the conditions reported in the source is implausible. Furthermore, Proposal
Figure 7 contains a field of empty black background at the top suggesting that the image was
edited to remove the uppermost cell in the source figure.92 The vertical color scale bar in
Proposal Figure 7 is identical in size and appearance to the vertical scale bar in Source 2
Figure 7, but the subject labeled it differently. OIG concludes that coincidence is not a plausible
explanation for the arrangement of the three images in exactly the same orientations with respect
to each other as well as with respect to the vertical color scale bar.93 Thus, OIG concludes that it
is more likely than not that the subject created Proposal Figure 7 by copying and manipulating
Source 2 Figure 7, and Proposal Figure 7 is not a coincidental or accidental compilation of
original data.

                                                      Intent

         The Committee concluded that the subject acted knowingly with respect to plagiarism,
falsification, and fabrication involving the material he copied from the source documents and
subsequently modified. OIG agrees with the University that the use of the pronoun "we" to
incorporate the questioned text and figures into the "Preliminary results" section of the proposal
demonstrates the subject's knowing intent to present the work of another person as his own. The
subject's admission of editing of Source 1 Figure 7 to show only the "relevant" portions in
Proposal Figure 4 further demonstrates the subject's knowing intent. Moreover, the
incorporation of Source 2 Figure 7 into the Proposal with substantial editing required actions
beyond simple cutting-and-pasting that further demonstrate that the subject acted knowingly.
Thus, OIG concurs with University's assessment of the subject's knowing intent to plagiarize,
falsify, and fabricate material with respect to the NSF proposal as supported by a preponderance
of the evidence.

87
  Tab 3, page 10. The Committee reported (Tab 3, pages 5-6) that the subject did provide a laptop computer and
two floppy disks for examination during the investigation. However, the Committee did not find "files containing
readable image data. . . on either disk."
   Tab 3, page 10.
   Tab 3, page 10.
   Tab 3, page 11. See also, Tab 22, page 4. Because the subject admitted that the images are unlabeled, and he
proffered no specific information about which figures he used, his assertions regarding the Committee's attempt to
read the data on the diskette (Tab 22, page 5 ) appear irrelevant to the analysis of the alleged misconduct.
   Tab 3, page 11.
'' Tab 3, page 11.
93 See Tab 24.
                                            Standard of Proof

        The University concluded by a preponderance of the evidence that the subject had
committed scientific misconduct in his NSF proposal. Because the preponderance of the
evidence shows that the subject knowingly copied text and figures into his NSF proposal without
proper attribution, OIG concludes that the subject plagiarized material from the source
documents. Because the preponderance of the evidence also shows the subject knowingly
altered the figures and misrepresented one of the figures as other experimental data, OIG
concludes that the subject fabricated and falsified material within his NSF proposal. Thus, OIG
concurs with the University's findings. OIG believes that a finding of research misconduct
regarding the copied text and figures in the subject's NSF proposal is warranted.

                                   OIG's Recommended Disposition

       When deciding what appropriate action to take upon a finding of misconduct, NSF must
consider:

           (1) How serious the misconduct was; (2) The degree to which the
           misconduct was knowing, intentional, or reckless; (3) Whether it was an
           isolated event or part of a pattern; (4) Whether it had a significant impact
           on the research record, research subjects, other researchers, institutions or
           the public welfare; and (5) Other relevant circumstances.[941

                                               Seriousness

        The amount of text copied by the subject is limited to a single paragraph, but the manner
in which he presented the text and his manipulation of the source figures exacerbate the
seriousness of his actions. The subject presented the copied text and figures under the heading
"Preliminary results" while using the pronoun "we" throughout that section of the Proposal.
Although "we" does not appear in the paragraph containing the copied text, the subject's liberal
usage of "we" everywhere else in the "Preliminary results'' section of the Proposal intermingles
the act of plagiarism with the act of falsification. That is, the subject not only copied the words
of another author without proper attribution but also actively wrote to further present the
intellectual content of the text as the product of his own work.

        Similarly, the subject's actions with regard to the figures commingle plagiarism,
falsification, and fabrication. The subject rearranged the four figures he copied into Proposal
Figure 4 as well as the caption text discussing those figures. He also altered the Proposal text
describing the experiments that he claimed he performed to obtain the data for that figure. Thus,
the subject's actions represent both plagiarism and falsification in submitting this figure to NSF.
In Proposal Figure 7, the subject copied the source graphic, manipulated it to remove a portion of
the image and the text labeling, and relabeled the image to comport with experimental conditions
he fabricated. Thus, the subject's actions in aggregate constitute not only plagiarizing the


94   45 C.F.R. § 689.3(b).
published figure but the falsification of another's data and presentation of the results as his own
fabricated work.

                                         Depree o f Intent

        The subject presented the plagiarized text and figures under the heading of "Preliminary
results" while using the pronoun "we" throughout the text, suggesting that the data and
methodology represent his own efforts. Furthermore, the subject not only copied text and figures
but also altered the source figures to remove portions while reporting different experimental
conditions. These actions necessitate more conscious effort than simple cutting-and-pasting and
thus demonstrate an elevated degree of intent on the part of the subject. OIG concludes that the
subject acted with a high degree of intent in plagiarizing, falsifying, and fabricating material in
his NSF proposal.

                                              Pattern

       OIG believes the current evidence is insufficient to support a finding of pattern related to
the subject's actions.

                                  Impact on the research record

       This evidence presented does not involve an impact on the published research record.

                                         Recommendation

       Based on the evidence, OIG recommends that NSF:

               send a letter of reprimand to the subject informing him that NSF has made a
               finding of research misconduct;

               debar the subject from receiving federal h d s for a period of 2 years commencing
               on the date of NSF's finding of research misconduct;

               require the subject to certify completion of a ethics course covering research
               misconduct before submitting any proposals to NSF on which he is a PI or Co-PI;

               require the subject to certify that proposals he submits to NSF do not contain
               plagiarized, falsified or fabricated material for 3 years after the debarment period;

               require that the subject submit assurances by a responsible official of his
               employer that proposals submitted by the subject do not contain plagiarized,
               falsified or fabricated material for 3 years after the debarment period, and

                bar the subject from serving as a reviewer of NSF proposals for 3 years
                commencing on the date of NSF's finding of research misconduct.
                          The Subiect's Response to Draft Investigation Report

        The subject responded to OIGYsDraft Investigation Report with a letter95addressing
three points. First, the subject stated that the omission of the citation to Source 1 resulted from a
change between bibliographic software shortly before submitting the proposal. While this
change in software may have occurred, the subject has provided no evidence to support the
omission of any citation to Source 1 in the "Preliminary Results" section of the Proposal
resulting from software difficulties. This section of the proposal contained citations to other
reference materials, including the subject's own publications. OIG concluded that the evidence
does not support the proposition that a change in software led to the omission of citations to
Source 1 for either the copied text or Proposal Figure 4.

        Second, the subject suggested that OIG should address Proposal Figure 7 in terms of
another publication96on which he was identified as a co-author along with his postdoctoral
advisor and others. The subject correctly pointed out that this additional paper shows that he was
associated with the collection of similar data and published it during his postdoctoral
appointment. However, statements by both the postdoctoral advisor and the subject have already
established this fact. The additional paper does not contain Proposal Figure 7.

        Finally, the subject noted that he is "willing to take a class on scientific misconduct, but
reject[s] NSF charges that I deliberately falsified or fabricated data."97

       Because the subject did not raise any substantive issues or errors in the draft report or
provide any additional evidence, OIG has not changed this report.




95   Tab 25, the subject's response to the OIG Draft Investigation Report, received as an email attachment February
